    March 13, 2002




Testimony

               Statement for the Record
                  Robert J. Lieberman
               Deputy Inspector General
                 Department Defense
                         to the
            Subcommittee on Readiness and
                 Management Support
           Senate Armed Services Committee
                           on
             Defense Financial Management

             Hearing Date: March 6, 2002


                Report No. D-2002-063




                 Department of Defense
             Office of the Inspector General
 Quality                Integrity        Accountability
Mr. Chairman and Members of the Committee:

       Thank you for the opportunity to provide the views of the Office of
the Inspector General, Department of Defense, on financial management,
which surely ranks as one of the Department's most difficult management
improvement challenges. I would like to begin with a brief recounting of
recent audit results.

Opinions on Financial Statements for FY 2001

      In terms of audit opinions on the reliability of DoD year-end financial
statements, I am unable to report progress for the DoD-wide or major
component funds. As in previous years, we issued an unqualified (clean)
opinion for the Military Retirement Fund's statements. Disclaimers of
opinion were necessary for all other major funds, however, because of
serious deficiencies in the reporting systems and other internal control
problems. A few DoD organizations, whose funds are not large enough to
require separate reporting to OMB, have made progress, but the impact is
primarily symbolic.

       Measuring progress toward compliance with the Chief Financial
Officers Act and related statutes has been extremely difficult, because the
Government has lacked any metrics except audit opinions on year-end
financial statements. I am greatly encouraged by the widespread support
expressed for our concept of applying Year 2000 conversion-type metrics to
the financial system improvement projects. As soon as the ongoing effort to
develop a comprehensive systems architecture has laid the groundwork, we
can begin assessing the progress of each system development or
modification effort that is needed to achieve compliance with the new
Federal Accounting Standards.

Other Recent Audit Results

       Although the annual audit opinions may continue to attract more
attention than most individual audit reports, the DoD progress in addressing
the specific findings and recommendations in those reports will be a critical
factor in how much financial management improvement actually occurs.
                                                                           2


      Now to bring the most important of these financial management audit
findings to your attention. Their variety illustrates the breadth of the DoD
financial management challenge.

              -- We reported in March 2001 that the DoD Financial
Management Improvement Plan, submitted to Congress in January 2001,
was incomplete and did not ensure that the Department would correct
financial system deficiencies and attain an integrated financial management
system structure. In addition, the Plan erroneously indicated that 12 critical
systems were compliant with Federal Financial Management Improvement
Act requirements. The Plan was little more than a compilation of
unvalidated inputs from various organizations. Its $3.7 billion cost estimate
for financial systems replacement or improvement was clearly understated
and unreliable. (Report D-2001-085)

             -- We reported in May 2001 that the Defense Finance and
Accounting Service needed to be more efficient and aggressive in collecting
debt from large contractors. We identified 148 cases worth $12.6 million
where action was needed. The List of Contractors Indebted to the United
States, which is a tool used by disbursing officers to offset contractor debts,
included numerous invalid debts and other erroneous data that reduced its
usefulness. (Report D-2001-114)

            -- In June 2001, we reported that DoD had successfully adapted
a commercial automated payment system for DoD freight payment purposes.
This enabled the Department to move away from untimely, paper-based,
poorly controlled and labor intensive processes for 1.25 million payments
per year. However, additional measures were warranted to take full
advantage of the system's capabilities and achieve optimum streamlining
without undue risk. (Report D-2001-148)

             -- In August 2001, we reported that the DoD had failed to
develop a standardized cost accounting system for managing the life cycle
costs of weapon systems. DoD reports that various acquisition reform goals
had been met by establishing such a system were wrong. (Report D-2001-
164)

            -- The DoD agreed with Congress in August 1998 to implement
a new policy to decrease the risk of progress payments being charged to the
wrong accounts. We reported in September 2001 that implementation had
                                                                         3


been poorly managed and the new policy was ineffectual. (Report D-2001-
188)

              -- We reported in November 2001 that DoD financial
management systems were not integrated and could not share data without
expensive and inefficient crosswalks. Nevertheless, the Department had
been moving ahead with the Defense Finance and Accounting Service
Corporate Database and other projects with insufficient assurance that a
truly integrated set of systems would result. (Report D-2002-014)

             -- The DoD plans to transition from the existing contractor
payment system, the archaic Mechanization of Contract Administration
Services (MOCAS) system, to the new Defense Procurement Payment
System by FY 2003. To ensure a smooth transition, it is important to close
as many contracts that have been completed, but not closed out, as possible.
In December 2001, we reported that DoD had a six year backlog of contract
closure actions and needed to accelerate the process. In addition, there were
weaknesses in the closure process itself, insufficient resources earmarked for
the task and untimely contractor input. Cumulatively, these problems
increased the risk to an orderly transition. (Report D-2002-027)

              -- From FY 1996 through FY 2001, 382 General Accounting
Office and DoD audit reports addressed a wide range of management control
issues in the DoD Purchase Card Program. Those audit results were
summarized in a December 2001 report. Auditors documented numerous
instances of misuse of the cards, lack of oversight and accountability,
splitting purchases to avoid oversight, failure to segregate duties and
inadequate training. This program is beneficial, but will require continued
oversight. (Report D-2002-029)

              -- In January 2002, we reported that most DoD components had
done little to implement the DoD Financial and Feeder Systems Compliance
Process, which had been inaugurated in January 2001 to apply the proven
management techniques of the Year 2000 conversion program to financial
systems improvement. Progress in mapping the flow of financial data and
compiling an inventory of systems had been disappointingly slow, despite
the fact that such research was supposed to have been done earlier for a
variety of reasons, including identification of security vulnerabilities,
contingency planning, and systems architecture development. However,
DoD management initiatives during FY 2001 and the guidance provided by
                                                                           4


the National Defense Authorization Act for FY 2002 had established the
groundwork for a more successful effort. (Report D-2002-044)

            -- In March 2002, we reported that the two versions of the
Computerized Accounts Payable System, used for Army and Defense
agency payments, lacked effective controls to detect and correct improperly
supported or erroneous payments to contractors. (Report D-2002-056)

The full text of our reports is available on-line at www.dodig.osd.mil.

Responding to Congressional Direction

       Section 1008 of the National Defense Authorization Act for FY 2002
directs the Inspector General, DoD, to perform only the minimum audit
procedures required by auditing standards for year-end financial statements
that management acknowledges to be unreliable. The Act also directs us to
redirect any audit resources freed up by that limitation to more useful audits,
especially in the financial systems improvement area.

       We strongly agree with the rationale behind Section 1008. Due to
overall resource constraints, it would be impossible to provide audit support
in the crucial systems improvement area if we were forced to expend
resources on labor intensive efforts to audit the convoluted workarounds and
poorly documented transactions that currently characterize most major DoD
financial statements. We greatly appreciate your leadership in focusing
attention on the system problems that are at the core of the DoD financial
reporting problems. By rejecting the notion that financial statements
compiled by special efforts, which bypass or override official accounting
systems, are worth their high cost or constitute progress, you have
reintroduced an appropriate sense of proportion.

DoD Initiatives

      The initiatives announced by DoD over the past year appear to be
highly compatible with the course mandated by Section 1008. For the past
several years, we had expressed concerns that the cost of the Chief Financial
Officers Act compliance effort was unknown, performance measures were
lacking, there was no sense of consistently strong central leadership and
there was no assurance that managers would get more useful financial
                                                                          5


information, even if year-end financial statements eventually received
favorable audit opinions.

       We believe that the effort to establish a comprehensive financial
system architecture is a necessary and long overdue step. There are
undeniable risks--development of the architecture could take much longer
than anticipated, the end product might leave numerous unresolved issues,
the cost to implement the architecture might be prohibitively expensive or
the DoD might lack the discipline to make system program managers
conform to the architecture. Nevertheless, the financial management
improvement effort needs to be treated as a program, with all of the
management controls that a very large program should have. Those include
a master plan, well defined management accountability, full visibility in the
budget, regular performance reporting and robust audit coverage. We
believe that the DoD is making a good faith effort to create a strong
management structure for the systems improvement effort. We look forward
to assisting with timely and useful audit advice, just as we did during the
Year 2000 conversion.

        Likewise, we welcome the emphasis in the President's Management
Initiatives on controlling erroneous payments. The DoD has worked hard to
improve the efficiency of its disbursement operations; however, this is
another area where the inadequacy of current systems is the core problem.
As the Department pursues the goal of greatly improved financial reporting,
it must also keep focused on the need for better controls in many facets of its
day-to-day finance operations. We understand the need for continuous audit
coverage in that area too.

Again, thank you for soliciting our views on these matters.
